_ E 45 ty 4?
CASE NO:

V,

oJ v‘ 4 (Q)

IN THE SUPREME COURT OF THE UNITED STATES
Leon Venegas,Dr.
Supreme Court, U.S.
FILED

Petitioner,

JUN 0 3 2013

vs
Shane Dackson

OFFICE OF THE CLERK

Respondent.

ON PETITION FOR WRIT CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF MY CASE)
PETITION FOR WRIT OF CERTIORARI

Leon Venegas,Dr.-Petitioner, In Pro Per
2500 South Sheridan Drive
Muskegon Heights, Michigan. 49444

QUESTIONS PRESENTED
I.

DOES A STATE TRIAL COURT DEPRIVE A CRIMINAL DEFENDANT
OF HIS/HER CONSTITUTIONAL RIGHT TO SELF REPRESENTION
WHEN THEY DENY THE DEFENDANTS UNEQUIVOCAL REQUEST TO
REPRESENT THEMSELVES WITHOUT FIRST CONDUCTING THE
REQUIRED FARETTA INQUIRY TO DETERMINE THE FACTS OF
THE DEFENDANTS REQUEST ON THE RECORD?

PETITIONER answers, "Yes".
RESPONDENT has not answered.
(a)

IS A REQUEST FOR SELF-REPRESENTATION
CONSIDERED TIMELY WHEN THAT REQUEST IS
MADE DURING THE FINAL PRETRIAL PROCEEDING,
PRIOR TO THE 3URY BEING CALLED IN FOR JURY SELECTION?

PETITIONER answeres, "Yes".
RESPONDENT has not answered.
II.

DOES A CRIMINAL DEFENDANTS TRIAL COUNSEL
DEPRIVE THE DEFENDANT OF THEIR CONSTITUTIONAL
RIGHT TO THE EFFECTIVE ASSISTANCE OF COUNSEL
BY DELIBERATELY FAILING TO INVESTIGATE
(OBTAIN) EXCULPATORY EVIDENCE?

PETITIONER answers, "YES"
RESPONDENT has not answered.

LIST OF PARTIES
Leon Venegas, Or., Petitionser
Shane Oackson (Warden), Respondent

*

TABLE OF CONTENTS
PAGE
OPINION BELOW

1 .

3URISDICTI0N

2

CONSTITUTIONAL PROVISION INVOLVED

3.

STATEMENT OF THE CASE

4,5,6

REASON FOR GRANTING THE WRIT

7-29

CONCLUSION

30 .
INDEX TO APPENDICES

Appendix A - Sixth Circuit COA Denial of Rehearing En Banc.
Appendix B - Sixth Circuit COA Denial of Certificate of Appeal.
Appendix C

U.S. District Court, Western District of Michigan:
Denial of Reconsideration.

Appendix D

U.S. District Court for the Western District of
Michigan: Denial of Writ of Habeas Corpus.

Appendix E - Michigan Supreme Court: Denial of Leave to Appeal.
Appendix F - Michigan Court of Appeals: Denial of State Appeal.
Appendix G - Subpoena for Trial Counsel to obtain Qttaua County
Sail Recordings.
Appendix H

Petitioner's Affidavit.

Appendix I

O.C.3.; Scott Brovant's response letter to
petitioner's request for the O.C.3. recordings.

Appendix 3 - Michigan Court of Appeals Order on behalf of the
O.C.3. recordings.

TABLE OF AUTHORITIES CITED
Arizona v Fulminate, 499 U.S. 279, 309-10 (1991)

p .1 0

Chapman v United States, 553 F.2d BB6, 887 (5th cir.1977)

p .1 6

Cochrane v Palmer,

p.1 2

2012 U.S.

Dist. Lexis 187399

Faretta v California, 422 U.S. 806 (1974)
10,11 ,12,13,15,18,19,20,30

p.7,

Godinez v Moran, 509 U.S. 389, 400

p .1 3

Hill v Curtin, 792 F.3d 670 (6th cir.2015)
12,15,16,17,18,19,

p.7,

Marshall v Taylor,

395 F.3d 1058

p .1 8

McKaske v Wiggins,
12,19

Supra, 177;

(9th cir.2005)

465 U.S. 168,183

(1984)

P-11,

People v Anderson, 55 Mich App. 317 (1974)

p.17

People v Hill, 282 Mich App. 53B (2009)
14,19,20

P -9 ,

People v Hill, 485 Mich 912 (20Q9)

p .1 6

People v Russell, 471 Mich 1 82, 1 90; 684 N.W.2d 745 (2004)
16

P-9,

People v Williams, 470 Mich 634, 642; 683 NW2d 597 (2004)

p .9

Robards v Rees, 789 F.2d 379, 383 (6th cir.1986)

p .1 6

Strickland v Washington, 466 U.S. 668 (1984)
28,29,30

P-22,

United States v Bankoff, 613 F.3d 358, 373 (3rd cir.2010)

p .1 6

United States ex.rel. Maldonado v Denno, 34B F.2d 12,16 (2nd cir.
1 965) p . 16
United States v Gonzales-Lopez', 165 L.ed. 2d 409; 548 US 140: 126
S.ct. 2557, 2564 (2006) p.19
United States v Smith, 780 F.2d 810,811

(9th cir.1986)

p .1 6

United States v Young, 287 F.3d 1 352, 1 354 (11th cir.2002)

p .1 6

Venegas , 2016 WL 33651 70, at *3

P-7

STATUES AND RULES
U.S. Const., AM VI

p . 11

MCR 6.005

P.9,17

MCLS 750.349(b)

p . 26

Mich. Const., 1963, art 1,13

p.17,19

MCLS 763.1

p.17,19
OTHER

Petitioner's Michigan Court of Appeals unpublished opinion, dated
on Dune 16, 2016, No. 325380 p.15
Thomas Paine: (on a) Bill of Rights-quote. p .20

IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to
review in the judgment below.
OPINION BELOW
The opinion of the United States Sixth Circuit Court of Appeals
appears at apendlx B to the petition and is unpublished.

1 .

JURISDICTION
The date on which the United States Sixth Circuit Court of
Appeals decided my case was December 26, 2010.
A timely petition for rehearing was denied by the United
States Sixth Circuit Court of Appeals on th following date: March
6, 2019, and a copy of the order denying rehearing apears at ap pendix A.
The jurisdiction of this court is invoked under 28 U.S.C.
1 254(1 ) .

2.

CONSTITUTIONAL PROVISION INVOLVED
I. A criminal defendants right to represent himself is implicitly
guranteed by the Sixth Amendment to the United States Consti­
tution, US Const, AM VI.
II. A criminal defendant right to an effective assistance of co­
unsel * is implicitly guaranteed by the United States Constitution, US Const, AM VI.

3.

STATEMENT DF THE CASE
Petitioner, Leon Venegas 3r. stood trial twice in the Ingham
County Circuit Court; City of Lansing, Michigan, before Judge
Rosemarie Aquilina. The first jury acquited petitioner of retali­
ating against a witness and deadlocked on the two remaining char­
ges of domestic violence - 3rd offense and unlawful imprisonment.
At the second trial, the jury convicted petitioner of the remaining charges. The charges stemmed from a purported alterca­
tion between petitioner and his then girlfriend, Angela Baker. The Judge sentenced petitioner on December B, 2014 within his
guidelines as a habitual Fourth offender concurrent prison term
of 12 to 30 for unlawful imprisonment and 5 years to 200 months
for domestic violence

3rd, with credit for 228 days.

Petitioner and his trial attorney Damien Anthes disagreed strongly concerning trial strategy. Their disagreement began in December of 2013 and persisted throughout both trials. The break­
down of their attorney-client relationship centered on Mr. Anthes
failure to serve a subpoena signed by the Judge to obtain recordings of two exculpatory jail calls between petitioner and the com
plainant Angela Baker, where she admitted to falsely accusing pe­
titioner of the assult. See Appx. G. However, despite the Judge's
order and petitioner's repeated request for trial counsel to ob­
tain those recordings, he failed to do so .
Petitioner appealed as of right to the Michigan Court of Ap­
peals claiming that relevant to this writ, that the trial court violated his Sixth Amendment right to represent himself as peti­
tioner made and unequivocal request to represent himself before
the commencement of his 2nd trial; prior to the jury being called

4.

for jury selection. (2nd trial pg.17)
In fact, petitioner made several request to represent him­
self throughout the proceedings in the trial court, due to the
attorney-client relationship breakdown. However, petitioner self
representation request were all together denied by the trial
court Judge because petitioner was not a lawyer (flrr . Sept.18,
2013, pg.11); did not have a legal license (Motion Hearing-Dune
25, 2014, pg.11, 13); or have a law degree (Trial 1

Aug. 25 ,

2014, pg.15) Further abusing her discretion, the trial Judge con­
cluded to FORCE unwanted counsel (Anthes) upon petitioner under
the choice of either co-counsel or trial counsel as lead counsel,
not self representation. As the trial Judge stated (more than
once); that she did not let people represent themselves in her
courtroom. (Arr. Sept, 18, 2013, pg.11-12; Trial 1

Aug. 25 ,

201 4 , pg.15).
Petitioner also claimed in his appeal to the Michigan Court
of Appeals that trial counsel was ineffective for failing to in­
vestigate (obtain) the Ottowa County Jail inmate phone recordings
petitioner requested that were most relevant in a trial that hin­
ged largely on the complaintants credibility, depriving him of an
adequate defense and a fair trial.
Petitioner also raised

improper denial of substitute coun­

sel and prosecutorial misconduct for failure to correct perjured
testimony. However, petitioner abandoned these issues at the Fe­
deral level of his appeals.
The Michigan Court of Appeals

Affirmed. See Appx. F.

Petitioner then filed a Leave to Appeal to the Michigan
Supreme Court whom denied the Appeal. See Appx. E.

5.

Petitioner then filed a Writ of Habeas Corpus in the United
States District Court For the Western District of Michigan, South
ern Division. The District Court denied the writ, along with his
Motion for Bond and Certificate of Appealibility. Appx . D-C.
Petitioner appealed to the United States of Court for the Sixth Circuit only on issues 1, 2, and 3. The Sixth Circuit de­
nied.Appx.B.
Petitioner then filed for a rehearing en banc in the Sixth Circuit only on issues 1 and 2. They denied it. Appx. A.j

6.

REASONS FOR GRANTING THE hlRIT

I.

THE TRIAL COURT DEPRIVED PETITIONER
OF HIS CONSTITUTIONAL RIGHT TO SELF- ,
REPRESENTATION U1HEN IT DENIED HIS '
UNEQUIVOCAL REQUEST TO REPRESENT HIMSELF
UITHOUT FIRST CONDUCTING THE REQUIRED
FARETTA INQUIRY TO DETERMINE THE FACTS
OF PETITIONERS REQUEST ON THE RECORD.
The Sixth Circuit Court of Appeals decision an petitioners eeif-

representation Issue was 'contrary to the United States Supreme Court precedent
end an unreasonable application of clearly established Federal law set forth
in Faretta v. California, 422 U.S. B06 (1974).
In affirming, and denying petitioner a certificate of appealability on
hie self-representation issue, the Sixth Circuit Court of Appeals (hereafter,
*

6th Cir.) stated on pg. 2 & 3 of their Unpublished Opinion (dated Dec.. .26,
2018, No.i 18-1648):
The state court of appeals rejected this claim because
Venegas decided to proceed with counsel at the, beginning
of his first trial and did not'fbriouslylinvoke his right
to self-represent at.ion at the outsat of his second trial.
Venegas, 2016 ML 3365170, at *3. The district court
determined that the state court of appeals reasonably
applied Faretta and its progeny because the* record made
it clear that Venegas*a request was not serious. To the
extent Venegas argued that ihe trial court had a rule
against self-representation, the district court rebuffed
that claim by citing the trial court's discussion
concerning self-representation at the beginning of Venegas s
first trial. Although, Venegas now claims that the trial
court had to conduct some inquiry into his second request,
the Supreme Court has not clearly required a trial court
to do so whan denying an untimely request. Sea Hill v.
Curtin, 792 F.3d 670, 678 (6th Cir. 2015).
In addressing the first part of the above statement by tha 6th Cir, that"the state court of appeals rejected this claim because Venegas decided to
proceed with counsel at the beginning of his first trial and did not seriously
invoke his right to self-representation at the outset of his 2nd trial.”
(6th Cir. Unpublished Opinion, datsd Dec. 26, 2018, No. 18-1646 pg. 2).

7

Petitioner points out - that the trial court 3udge only allowed petitioner
to proceed in his first trial under co-counsel (Hybrid rep.), MOT aelfrepresentation, but petitioner backed out because he was promised that the
Ottawa County Call inmate phone recordings would be admitted into evidence for
use in his defense - Aug. 25, 2014 T1 pg. 16, Av: 2-17.

Petitioners decision

to proceed with counsel was logical end understandable.
Kauevar, when those recordings were still not made available by the
beginning of petitioners second trial, the very Issue which caused him to
request the representation of himself, was still present. Therefore petitioner
had no choice but to renew his request to proceed in pro se In the following
exchange between petitioner and: the trial court 3udga:
Mr. Venegas: I want to fire my attorney
Ths Court: Denied. Have a seat.
Mr. Venegaa: utell, I111 represent myself than, how about that?
Ths Court: Have g seat, how about that? Mow, you ban either behave,
sir, in this (cqUtftrgomj and have a trial with your presence or you can
hays a trial without your presence. That’s my ruling. Have a seat,
(Trial 2 - October 20, 2014, pg. 17).
The United States Supreme Court has held that a trial courts erroneous
denial of a defendants right to self-representation is a structural error
necessitating automatic reversal and not subject to harmeless error review.
United States v. Gonzalas-Lopez, 165 L.Ed.Zd 409; 548 US 140; 126 S.Ct. 2557,
2564 (2006).
In addressing the second part of the 6th Cir.'s statement that [petitioner1] "did not seriously invoke his right to self-representation at ths
outsat of his second trial".

(6th Cir. Unpublished opinion dated Dec. 26,

2016, Mo. 1B-1648 pg 2). Petitioner must go back to the Michigan Court of
Appeal’s statement concerning this issue: "Although ths trial court stated NO

8

findings in support of its ruling" { • * * Michigan Court of Appeals, Unpublished
Opinion, dated Dune 16, 2016, Mo. 325380 pg. 3).

Hers petitioner is showing

this most Honorable court that this "opinion" became a decision based on
ASSUMPTION and MOT FACT or in other words an unreasonable determination of the
FACTS.

In which the following reviewing courts should have never accepted.

Moving an to the next statement made by the 6th Cir. that - "ths district
court determined that the state court of appeals reasonably APPLIED Faretta
and its progeny because the record made it clear that Venegas's request u»ss
not serious."

(6th Cir * f Unpublished Opinion, dated Dec. 26, 2018, Mo. 18-

1648 pa 2),
It was NOT the Michigan Court of Appeals duty to APPLY the Faretta inquiry
or its progeny into petitioners unequivocal request to represent himself.
It was the "TRIAL COURTS" - Mandatory duty to APPLY it.
Under Michigan case law, ones a defendant requests to represent himself
the TRIAL court MUST DETERMINE that the request is [serious] unequivocal, and
that the defendants assertion of the right to self-representation is knowing,
intelligent, and voluntary. People v. Russell, 471 Mich. 162, 190; 684 NfaQd
745 (2004); People v. Uilllams. 470 Hich. 634 , 642 ; 603 tWd 597 (2004)
[quoting Faretta v. Cali, 422 U.S. 806, 035). The trial court must also
substantially comply with MGR 6.005 by advising the defendant of the charge
againat him, the possible prison sentence, any mandatory minimum sentence, and
the risks of self-representation, and by offering the defendant the
opportunity to consult with an attorney. Russell, 471 Mich, at 190-191,
(People v. Hill, 282 Mich. App. 538; 553; 766 N.U.2d 17, 2009 - Dansen, P.D.
dissenting).
Theibright "Illuminated Path" paved by the Michigan court rules in which
the Mich. Court of Appeals and tha 6th Dist. spoke of is totally absent from

9

the trial courts record of petitioners 2nd trial on Oct. 20, 2014; which
resulted in an unreasonable application of Faretta Mandate that the trial court
must investigate a litigant's request to proceed without counsel - Faretta, 422
at 807, 835.
Moving on to the next statement made b the 6th Cir. (pg.2) that - "To the
extent Venegas argued that the trial court had a rule against self*
representation, the district court rebuffed that claim by citing the trial
courts discussion concerning self-representation at the beginning of Venegas's
first trial.
The citing of the trial courts discussion that was made "by the U.5. Diat.
court concerning the trial Judges rule against self-representation - on page 5
of their 5-14-18 decision is of petitioners, Sept. 10, 2013 "arraignment»w
Mot petitioners request for self-representation in his 1at trial.
However, the Dist, Court claimed that the trial court [Judge Aquillna] did
not have an "unconstitutional blanket - rule" in her courtroom because she
would appoint (Hybrid) co-counsel for defendants who wished to represent
themselves during trial.

This was an unreasonable determination of the facta

by the Dist. court which was erroneously supported by standby counsel case
law.

And even though standby counsel and co-counsel (Hybrid rep.) are not the

same these arguments in trying to justify the trial Judges blanket rule still
fail because A.) The trial Judge stated, "in MORE than one hearing'-, that "she did not
allow self-representation in her courtroom",

Tha First time was-

"Arraignment (30th Cir. Co.) Sept. 1B, 2013* pg. 11
■

Tha Court: Now, I understand that you have chosen
to represent yourself?
The Defendant: Yes. (Av. 12-13.)

10

Additionally, petitioner timely assarted his right to self-representation
and was unequivocal @ that point (pg, 11, Lines 12, 13 & 14} and by long
established law, the trial court use to stop all proceedings and carry out the
mandatory colloquy (under Faretta) to inquire into petitioner’s competency to
act as his own attorney.

That did not happen and such cannot be refuted by

the record. This was; "structural error1* requiring reversal of petitioner's
sentences end convictions (MsKasfela y. Wiggins. Supra, 177 n.Bj Arizona v.
Fulminant©, 499 U.S. 279 , 309-10 (1991). All proceedings that followed from
that day forward must bs declared null, and void, including the entire second
trial.
(trial judge Aquiline*s blanket rule statements continued) * * e
* Arraignment. (30th Ctr. Co.) Sept. 16. 2013*
Pg. 11 yjLine, I'S - The Court: Well that doesn't happen in my courtroom unless
Pg. 12jf Line 16 n, The Court:,X don't let you represent yourself
The second time the trial judge stated that “she did not allow selfrepresentation in bar courtroom", use ♦Trial 1 (pretrial proceeding) Aug. 25, 2014*
Pg. IS, - The Court: ..... _! - don't let people represent themselves in my
courtroom (fiv. zC& 2o).
In the exchanges noted above between the trial Judge and petitioner, there
is no misconstruing the trial Judge's statements which verifies; the FACT that
she DIO have an unconstitutional blanket rule against self-representation in
place in her courtroom.
A criminal defendant's right'to represent himself is implicitly guaranteed
by the Sixth Amendment to the United States constitution, U.S. Const * t Am VI;
Feretta v. California, 422 U.S. 006, 819-020; 95 S.Ct. 2525; 45 UEd.Zd 562
(1975).
Furthermore, everytime petitioner requested to represent himself, the trial

11

Judge violated his constitutional right to represent himself by FORCING
unwanted counsel upon him under the choice of either co-counsel (Hybrid Rep.)
or trial counsel as lead counsel, NOT self-representation. However, at no
time during this entire case did petitioner ever request co-counsel (Hybrid
rep»).
B.) In order for a Court/Judge to ^'appoint co-counsel (Hybrid rep.),” it roust
first be requested by the defendant. ttoieh is in the courts discretion to
grant or deny the request. Mcftaakle v. Wiggins, 465 U.S. 169, 183, (1994),
Faretta, 422 U.S. 806, 820 - To thrust counsel upon the accused against
his considered wish, thus violates the logic of the Amendment.

In such a case

counsel is NOT an assistant, flbut a Master;" and a right to make a defense is
stripped of the personal character upon which tha Amendment insists, pg. 821An unwanted counsel 'represents the defendants only through tenuos and
unacceptable Legal Fiction*.

Unless the accused has acquiesced in such

representation, the defense presented is not the defense guaranteed him by
the const * f for, in a very real sense, it is not his defense.

See also -

Cochrane v. Palmer, 2C12 U.S, Dist. LEXIS 167399 pg. 45s nHlll v. Curtin",
792 F.3d 670 , 6S9.'
NDy petitioner will show

toe trial Judge had a blanket rule in

pises in her courtroom.
♦Arraignment (Cir. Co) Sept. 18, 2013*
V

Pg. 11, Lin$r15 - The Court: yell, that doesn’t hsppsn in ray courtroom
Lins 16 3unless” - are you a LAWYER, sir?
♦Motion Hearing (Cir. Co) June 25, 2014*
/ .

Pg. 11, Lit^2§ - The Court: Sir, here*a toe thing. You want to
Line 24 -__ \ ,

drive tha bus without a trLeqal License.B

Pg. 13, Lina 14 - The Court: you wanting to drive the bus withbut a
Line 15 license.
♦Trial 1 (pretrial proceeding) Aug. 25, 2014*

12

Pg* 15, Lins-24 - and you do not have a "LAM DEGREE" ami I
Lins-^25.
(don’t let people represent themselves in ary courtroom,
[etc *3j..[«]
Tha above exchanges between the trial 3udga and petitioner show & prove,
exactly ’-WHY" the trial 3udge had a blanket rule in place in her courtroom,
which is all the more an unconstitutional violation of patitionsr’a or anyone’s
right to self-representation.
TSts United States Supreme court has held that the defendant’s "technical
legal knowledge" may simply not be considered a basis; for determining the
propriety of an asserted right to self-representation ** faretts ,pg. 836. ye
made it clear that the defendants tech. Legal Knowledge is not relevant to the
determination whether he ia competent to waive his right to the determination
whether he ia competent to waive his right to counsel, end we emphasized that
although 'die defendant may conduct his own defense ultimately to his own
detriment, his choice must be honored - Godinez v, Horan. 509 U.S. 389, 400.
Vat, it ia undeniably clear that the trial Judge in this case also abused
her discretion (more than once), when sha improperly invoked petitioner lack
of tech. Legal knowledge as a ground for denying his constitutional right to
represent himself,
"Nonetheless, as noted previously, the trial court made no inquiry into
defendants assertion of the right to self-representation. Uithout making any
inquiry. It was IMPOSSIBLE for the trial court to ascertain whether defendant
was seeking to unequivocally, knowingly, intelligently, and voluntarily waive
his right to an attorney.

8y summarily substituting its own decision for that

of defendant — whether for the sake of expediency or for some other reason —>
the trial court effectively foreclosed any consideration tof defendants assertion
of tha right to proceed pro se, never reaching the merits of his request.
our trial courts are to be allowed to simply deny criminal defendants -

13

If

requests there will ba little meaning left in the Sixth Amendment right to
self“representation under Farstta, or in Michigans constitutional guarantee
that a litigant in the courts of this State may defend his suit * • « in his oosn
proper person • * » * Const » * 1963, art 1 § 13,

(People v. Hill, 282 Mich, App.

538j 76S N.U!.2d 17, 2009 Oansen, P,3. dissenting).

14

REASONS FOR GRANTING THE liiRIT

A REQUEST FOR SELF REPRESENTATION IS
(CONSIDERED) TIMELY-WHEN THE REQUEST
IS MADE DURING THE FINAL PRETRIAL
PROCEEDING; PRIOR TO THE JURY BEING
CALLED IN FOR JURY SELECTION.

(a)

THERE EXIST A CONFLICT IN THE CIRCUIT COURTS PERTAINING TO THE APPLICATION OF
FARETTA V. CALIFORNIA - AS TG-k>HEN A SELF REPRESENTATION REQUEST 15 CONSIDERED
TIMELY.

THIS COURT IS BEING CALLED UPON TO DEFINITIVELY DECIDE THIS MATTER.

In affirming the Michigan Court of Appeals and the U.S. District. Court the
6th Cir. added thsir own personal non-record supporting "facts" as to why the
C.O.A. was correct and should be affirmed.
ihis resulted in a decision that was an unreasonable determination of the
"facts" in light of the record facts that clearly show the trial courts ruling
to deny petitioner his unequivocal request to represent himself in his second
trial was not in compliance with Faretta & Michigan Law.
The 6th Cir. relied on Hill y. Curtin. 792 f.3d 670, 673 (6th Cir. 2015),
where Hill's trial Qudgs denied his request - stating on the record: "Not at
this time".

Implicating that this last minute decision to represent himself

would have caused a delay in the trial proceeding; and was therefore untimely.
However, in distinguishing the "FACTS* from petitioners case and that of
Hills.

Petitioners "trial court stated NO Findings in support of its ruling",

(Michigan Court cf Appeals, Unpublished Opinion, dated Ouna 16, 2016, No.
3253B0 pg. 3).
There was NO record FACTS to support the trial court/jutiga ever took tha
position that petitioners request was "untimely*.

This constitutes an

unreasonable application of non-existing facts and therefore the 6th cir.
decision to deny petitioner for such reason as untimely should be reversed.
In Hill v. Curtin, 2013 U.S. APR. LEXIS 26115 (6th cir. 2013) where the

15

Sixth Circuit granted Hill 3 writ of Habeas Corpus they stated: "although the
Supreme Court has yet to elaborate on the exact point at which a request for
self-representation is no longer timely", "this court and our sister courts have
held that a request for sslf-representatlon IS timely if it is made prior to the
time the jury is selected and sworn in - and jeopardy attaches - unless the
prosecution can demonstrate that the request is merely a delay tactic.
at pg 7)

(Hill

Sae Hobards v. Rees, 789 F.2d 379, 383 (6th Cir. 1986); see also

Unitad States v. Sankoff, 613 F.3d 358, 373 (3rd Cir. 2010); (pg.e) United
States v. Young, 287 F.3d 1352, 1354 (11th Cir. 2002); United States v. Smith,
780 F.2d 810, 811 (9th Cir. 1986); Chapman v. United States, 553 F.2d 886, 887
(5th Cir. 1977); United States ex. ral. Maldonado v. Oenno, 348 F.2d 12, 16
(2nd Cir. 1965).
Then the Sixth Circuit changed Its course 2 years later in Hill v. Curtin;
7S2 F.3d 670, 678 (6th Cir. 2015), in accordance with People v. Hill, 485 Mich.
912 (2009) in uhich the ORDER of tha Michigan Supreme Court held: that the
lilayne Circuit county denying the request for salf-repressntation "at this time"
did not deny the defendant his constitutional right to self-representation
where the defendants request was not timely and granting the request "at that
moment" would have disrupted, unduly inconvenienced and burdenad the
administration of tha courts business.

People v. Russell, 471 Mich. 192, 190;

684 N.W,2d 745 (2004).
The reference of "at this time" came from when tha trial 3udge denied Hill's
request on tha first day of his trial and Hill informed the trial court that he
wanted to represent himself "as potential jurors ware on their way up to the
courtroom."

Although minutes prior to Hills request the trial court asked if

there ware any issues or motions to address in which Hill's court appointed
counsel replied - "Not at this time", essentially waiving Hill's Final pretrial

16

without Hill *3 consent.
However, Hill argued in his appeals that the jury had not been selected
when he made the request to represent himself.

An in contradicting as the

decisions that the Sixth Circuits sre, ths Michigan Supreme Court also
contradicts their prior decision of their then governing procedural rule set
forth on the timeliness of a self-representation request in People v. Anderson,
55 Mich. Add. 317 (1974) - Overviews In reaching its decision, ths court
considered defendants claim that it was reversible error for the trial court
to refuse to permit defendant to discharge his attorney prior to the selection
of ths jury and to proceed with the trial representing himself.

Ths court held

that because defendants request to discharge his attorney was accompanied by an
unequivocal statement that defendant desired to represent himself, the trial
court violated, defendants constitutional and statutory rights under Michigan
Const., art 1 §-13 (1963) Mich. Comp, taws $ 763,1 by its failure to honor
defendants request;;

Outcome, reversed conviction remanded for a new trial.

(?40TE: MCR 6.005(D) or (£) waiver of counsel - has fffi time parameters.).
So there is undeniably too much confusion; alat of contradictions in this
State alone.

And, there is a definite split between the federal Courts on the

Issue of whan doss s request for self-representation become untimely?
justice ■Bernice S.O., in her dissent in - Hill v, Curtin, 793 f.3d 670,
679 (2015), identifies that numerous courts are misinterpreting and misapplying
Feretta's holding, that a procedural rule an the timeliness of a selfrepresentation request has never bean set-'iin Michigan.
"Beyond this loose limit, the Faretta court did not address timeliness.
Indeed, timing was one of the unanswered concerns that vexed the dissenting
justice Blaefcmun.

justice fslackmun raised e series of questions on how the

right to self-representation would operate in practice, including: "How soon

17

in the criminal proceeding's must a defendant decide between proceeding by
counsel or pro aa?

Must he be allowed to switch in raid-trial?

(Faretta,

422 U.5. at 852 Blackmun, 3 •» dissenting)(Hill v, Curtin, 792 F.3d 670,
679, 2015.

Bernice, B.D.3.; dissenting).

"To the extent the Michigan Supreme Court relied on the timing of Hill's
request to support its conclusion that Hill's constitutional right to
represent himself was not violated by the trial courts failure to address
whether Hill's request was intelligently end voluntarily made, that conclusion is
an unreasonable application of Faretta ami its progeny".

(Hill v, Curtin, 792

F.3d 670, 682, 2015, Bernice, S.D.3 * I dissenting).
"The reason being is because TIMING is not essential to Faretta*a
principal holding, which is that a trial court may not constitutionally FORCE
a lawyer on a defendant who intelligently and voluntarily choose's to waive
his right to counsel and represent himself."

(Hill v. Curtin, 792 F.3d 670,

6S2, 2015, Semice, B.D.3., dissenting),
"The case law relied upon by the majority also tends to support this
conclusion. for instance, the majority derive*s its assertion that Faretta's
holding necessarily incorporates a loose timing element by selectively quoting
from the Ninth Circuits decision in Marshall v. Taylor, 395 F.3d 1058 (9th Cir.
2005). Marshall observed; Supreme Court precedent! regarding the permissable
timing of a Faretta request is scarce. NO Supreme Court case BAS directly
addressed the TIMING of a request for self-representation.

However, the

holding in Faretta indirectly incorporated a timely element" • * • •
"Thus, the Supreme Court incorporated the facta of Faretta into its
holding,

Accordingly, the holding may be read to require a court to grant a

Faretta .request when the request occur'3 "weeks before trial." However, the
holding does NOT define when such a request would become untimely."

18

"NOUMERE in the Feratte decision did the Supreme Court axplici'ty state that a
defendants self-repressntatian request must ba granted if and only if it comas
"well or weeks* before trial.
casas.

As FACTUAL and LEGAL MATTER this cannot be the

(Hill v, Curtin, 792 F.3d 670, 587, 2015, Bernice, 8.0.0 * t dissenting),

As previously stated In petitioners case the trial court mads no inquiry
into his unequivocal request to represent himself*
Mich. App. 538, 557, 2009.
•*

In People v. Hill, 2B2

In the dissenting opinion - Oansen, P.j • * stated:

.the trial courts failure to consider defendant’s request to represent

himself was tantamount to a wrongful denial of his right to represent himself.
Both, the failure to consider a request to proceed pro sa and1 the wrongful
denial of s request to proceed pro se achieve the asms result; both actions
improperly foreclose a defendants constitutional right to aalf-repressntetion.
See Faretta, 422 U.S. at 317, 819-820.
the tun.

I sse NO meaningful difference bstwaen

Because the trial courts wholesale failure to consider defendants

request to proceed without counsel in this case was tantamount to a wrongful
denial of the right, I conclude that structural error occurad and automatic
reversal is required.

Gonzales - Lopez. 548 U.S. at 150; HcKaekle v. Wiggins,

455 U.S. 168, 177 n 8; 104 S.Ct. S44; 79 L.Ed,2d 122 (1984)(observing that the
denial of ths right to self-representation ’’is not amenable to 'harmless error*
analysis” and that !)[t]he right is either respected or denied, its deprivation
cannot fee harmless*1)."(People y. Hill. 2B2 Mich. App. 538, 557; 7S6 N.k!.2d 17,
2009.

Oanssn, P.3., dissenting).

"A criminal defendants right to represent himself is implicitly
guaranteed by ths Sixth Amendment to the United States Constitution, US Const,
AM Ml: Faretta v, California. 422 U.S. 806, 819-620; 95 S.Ct. 2525; 45 L.£d.2d
562 (1975), and explicitly guaranteed by the Michigan Constitution and
Michigan Statutory Law, Const 1963, art 1 § 13; MCL 763.1.

19

The right to

defend is personal'5, and its therefore "the defendant « • • who must be free
personally to decide whether in his particular case counsel is to his
advantage... {Allthough he nay conduct his own defense ultimately to hia own
detriment, his choice must be honored out of ’that respect for the individual
which is the lifeblood of the law.
omitted),"
2009.

1n

Faretta, 422 U,S. st 834 (citation

(People v. Hill, 282 Mich. App. 538, 552-553; 765 ti.bl.2d 17,

Osnsen, P.j., dissenting).

In Faretta v. California, 422 U.S. 806

the Faretta court quoted -

Thomas Paine: "Either party • • • has s NATURAL right to pleed his own cause; this
right is consistent'with safety, therefore it is .retained; but the parties may
not bs able,

• ♦ *

therefore the civil right of pleading by proxy, that is, by a

counsel, is sn appendage to ths natural right [of self-rapresantation) • • « «
Thomas Paine on a Bill of Rights, 1777, reprinted in 1 Swartz 316,

(Faretta v.

California, 422 U.S. 8-06; 95 S.Ct. 2525, 45 L.Ed.2d 562 1975).
Petitioner asserts that it is not a privilege, for a person who is mentally
competent to plead their own csss, but e Natural Right, and that they should
never be denied thsir Natural Right only to have it stripped from thorn and
justified under ths "assumption" that their request was not "serious", or to
"assume" that personiypuld disrupt, unduly inconvenience, and burden the court
and the administration of the courts business", or for their request being
"untimely", or for any resson without first inquiring into the FACTS of that
persons request to represent themself, at that very moment - on the record, so
that the record will support ths determinations and decisions made - In
concern to that persons request.
To deny e person their Constitutional and Natural Right for such
assumptions, or without any inquiry, would be detriments! and a miscarriage of
justice.

20

Which is all the mere reasons for having our Constitution and a people or
government who are sworn to do everything in their payer to uphold our rights
and reflect justice.
Petitioner uias erroneously deprived of his constitutional and natural
right to represent himself and therefore he asks and prays for this most
Honorable Court to grant him s writ of certiorari, and to reverse his
.^onvictinna and sentences, and remand his case back to the trial court for a
new trial.

21

REASONS FOR GRANTING THE WRIT
II.

TRIAL COUNSEL DEPRIVED PETITIONER OF
HIS CONSTITUTIONAL RIGHT TO THE EFFECTIVE
ASSISTANCE OF COUNSEL BV DELIBERATELY
FAILING TO INVESTIGATE (OBTAIN)
EXCULPATORY EVIDENCE.
The Sixth Circuit Court of Appeals dscialohCton'petitinners ineffective

assistance of counsel issue was erroneous and involved an unreasonable
application of clearly established Federal law set forth by this court in
Strickland v. Washington (citation omittad).
In affirming, and denying petitioner e certificate of appealability on his
self-representation issue, the Sixth Circuit Court of Appeals (hereafter, 6th
Cir.) stated on pg. 3 of their Unpublished Opinion (dated Dec. 26, 2018, No.
10-1649):
And the state court of appeals rejected the ineffective
assistance claim because ;"[c]ounsel's decision to not
use the Ottawa County phone calls to prevent the jury
from learning that [Venegas] was incarcerated on other
charges constituted trial strategy," Id. Even assuming
that counsel performed deficiently by failing to obtain
those recording's, Venegas cannot show he suffered prejudice,
For one, although the Victim said that she reported Venegas
as payback, that statement does not necessarily mean
that she fabricated her allegations. And while she said that
Venegas did not hit her, she did ssy that he put his hands
on her, so her statements would not undermine his
convictions - especially when considered in light of the
victim's other statements regarding the incident at issue
and the injuries she suffered. Because Venegas cannot
show prejudice, reasonable jurists would not debate the
district court's denial of this claim.
In Strickland v. Washington, 466 U.S. 668, 687
A convicted defendant's claim that counsels assistance was so
defective as to. require reversal of a conviction...has two
components. First, the defendant must show that counsels
performance was deficient. This requires showing that counsel
made errors so serious that counsel was not functioning as
tee counsel guaranteed the defendant by the Sixth Amendment.
Second, the defendant must show that tha deficient performance
prejudiced the defense. This requires showing that counsels
errors were so serious as to deprive the defendant of

22

a fair trial, a trial whose result is reliable. Unless
a defendant makes bath showing's, it cannot be said that
the conviction • • • resulted from a breakdown in the
adversary process that renders the result unreliable.
In addressing the first pert of Stricklands requirement, petitioner paints
to trial counsels deficient, performance where: counsel failed to investigate
(obtain) the 0TT0U1A county jail (hereafter, Q.C.3.) recording's despite
petitioners repeated requests on - Apr. 14, 2014 pg. 8, 3une 25, 2014 pg. 9,
10 & 12, Trial 1 - Aug. 25, 2014 pg. 10 Av. 24 & 25 pg. 11 Av. 1-9 pg. 13, 17
18 *; trial counsels own words in acknawlsding his awareness of the O.C.3.
recording's being exculpatory in the pretrial proceedings of petitioners first
Trial on - Aug. 25, 2Q14 pg. 13 - Av. 13, 14 4 21 *; and the Trial Judge's
direct orders for trial counsel to obtain the O.C.3. recording's - via
subpoena: asa Appx. G, Apr. 14, 2014 pg. 8, June 25, 2014 pg. 9 Av. 21-24,
Trial 1 - Aug. 25, 2014 pg. 14 Av. 2-9 & pg. 18 Av. 2-10.
The above evidence identifies (shows and proves) that trial counsels
performance was deficient.
In part two of the Strickland requirement - petitioner is required to show
that counsels performance prejudiced the defense.
To begin with, petitioner needs to point to the following exchanges
between trial counsel and the trial court Judge (Trial T pretrial proceeding).
H

HR. ANTHES [trial counsel]':

,♦ • *

"a subpoena for.

I indicated to him that there

are Rules of Evidence that keep jurors from hearing that an individual is in
custody, on something else and has been charged with something else'1 • • • u
(Trial 1 pretrial proceeding - Aug. 25, 2014 pg. 7).
The following exchange is in concern to the IMGHAM .^county jail phone
call recordings the prosecutor used, whom trial counsel helped REDACT.
MR. AMT HE 5: "lie have went — and Ms. Fulda went to EXTREME MEASURES to remove

23

ANY reference to INCARCERATION, any possibility of penalty, et cetera, from
any phona call recording that she wants to use

6 * •

[.] (Trial 1 pretrial

proceeding - Aug. 25, 2014 pg. 7).
The prosecutor - Ms, Pu.lda, mads the following statements in her exchange
with the trial court Gudge.

MS. FULDA: * « • "and showed him, as he mentioned,

PARTS that ARE overly prejudicial to the defendant, that being OTHER places
iilhare he UAS INCARCERATED, penalties may exist in THAT CASE, NGN-RELEVANT
issues from those as to provide defendant a fair trial in this matter, and
Mr. Anthes * « • phone calls, the REDACTED phone cells,
the evidence and put ALOT of work into this case.

HE liiAS THERE to review

I confirm that."

(Trial 1

pretrial proceeding - Aug. 25, 2014 pg. 8).
Reasonably, Trial counsel could and should have REDACTED any mention of
INCARCERATION; other charges; etc., from the (Gttowa) O.C.3. recordings lust
as he went through EXTREME MEASURES in helping the prosecutor do with the
recordings she used against the defense,
And despite trial counsels new/second excuse, the trial 3udge ordered
trial counsel to obtain the O.C.3. recordings again for a third time - THE
COURT: "The only thing we can do is make sure they’re available end sea if we
can get them.

That’s all.

will, Your; Honor.

See if you can gat that.

THE COURT: Okay.

MR. ANTHES: Certainly

Do you still have the subpoena?

MR. ANTHES: I do, Your Honor,

THE COURT: Okay.

If not, I can sign a new one.

We'll sea if they’re available or ever ware

Gust see if we can gat it.

available, I don’t know, Sir, but certainly you can ask.

If that’s the route

you choose to go, we have — the witness and that’s the best evidence under
the bast evidence rule.

Now, if she lies, we don’t have the tape, but we're

going to try to get it for you, okay?

THE DEFENDANT: Yea, ma'am."

pretrial proceeding - Aug. 25, 2014 pg. 18 Av. 2-16).

24

(Trial 1

However, trial counsel failed to fulfill his duty and comply with the trial
Judges order to obtain the O.C.J. recordings.

And in petitioners AFFIDAVIT,

petitioner swears under the penalty of perjury - that: 11 Immediately upon
entering the courtroom before the cormnancemsnt (pretrial proceeding) of my
second trial on October 20, 2014.

I asked my trial counsel - Damian Anthes

(PS7T38) if ha had got the (Q.C.J.) recordings? In response, ha bent close to
me and whispered that ha had confirmed what the prosecutor (Pulda) said
and that "the (O.C.j,) recordings have been destroyed11...[.]

*»•

See Appx, H.

The fact that petitioner felt that ha could not trust trial counsel
(Anthes), haunted petitioner, and eventually led him to personally write a
letter to the O.C.J. while fresh out of quarantine from the Saginaw Corr.
Facility (under the F.O.I.A. - eventhough petitioner was not part of the
public),

O.C.J, Personnel - Scott Brovant wrote petitioner back informing him

that the recordings were put on a C.0., the fee was $10, and that it was ready
for pick up.

Sea Appx, I.

Additionally, petitioner gave the information to his mother.

His mother

then picked up a certified copy of the recordings on C.D, from the O.C.J. end
sent it to petitioners then appellate attorney - Jsqueline McCann 0 SA00.
Instead of the C.O.A. granting petitioners Motion for an Evidentiary
Hearing, they made the recordings part of the record for purposes of his
appeal.

See Appx. J.

Counsel has a duty to make reasonable investigations or to make a
reasonable decision that makes particular investigations unnecessary Strickland at 691,
Ms. Baker*3 testimony alone was the basis for probable cause. If trial
counsel had used tha O.C.J. recordings to discredit har testimony then there
is NO crime of domestic violence.

25

Likewise, Under - Unlawful Imprisonment MCLS 750.349b a person commits the
crime of unlawful imprisonment if He or she knowingly restrains another person
under any of the fallowing circumstances: (C) the person was restrained to
fescilitate the commission: as another Felony.
Ms. Baker admitted in her testimony at petitioners preliminary examination
5EM times ~ pg. 12 Av. 25: "I had the key.11 Page 13 Av. 2-4: The key chain—
!lhg didn’t know I had the key.i:

SO, I COULD HAVE LEFT WHENEVER I WANTED."

Cause he did get out the cer to smoke s cigarette with somebody • « * Av. 13:
"I had the key*.

Av. 1S

« k «

” nH£ DIDN'T EVEN KNOW I HAD THE KEY." Pegs 20

Av. 1 : I — "I had the key.11 ”1 could have left whenever I wanted”.
(Preliminary Examination - Vol I of II, Aug. 25, 2013) And on pg. 46 Av. 1Q:
"I had — I had the kay to the CAR THE WHOLE TIME1' » * • Page 48 Av. 24: «NQ.
had the key the WHOLE TIME".

I

(Preliminary Examination - Vol II of II, Sept. 5,

2013).
The fallowing exchange is of the O.C.3. recordings between the petitioner [Mr. Venegas], and Ms. Baker about'the allegations at issue in this case:
Petitioner: I didn’t put my hands on you, that’s my point.
Ms. Baker: It’s still the threat with you in ray face like that,
its scary.
Petitioner: Ho you ere going to help • * * the Lansing Police send me
to prison because you got veur finger stitche up?
Ms. Baker: Vup.
Petitioner: You’re fuckin wrong as hell ya.
Ms. Baker: Maw, just call it payback for ray diamonds and ray car.
(This gxcerptad portion begins at appx. rainuto 10:01 on Ouly 19, 2013 made
from the O.C.O. to 517-BS2-6174).
And in the second call they again discussed the evening in question:

26

Petitioner: Okay but, did I put my hands on you though?
3ust answer the question, did I put my hands on you?
Pis. Baker: NO you didn't hit me.
Petitioner: That ain't what I'm talking about man.
Ms. Baker: Veah you put your hands on me, but NO you didn't
hit me.

You didn't punch me, slap me, choke me, pull my hair,

or push me.

NO you didn't do NONE of those things - but

you put your .hands on me.
Petitioner: "The ONLY time I put my hands on you is when you
started kicking me and I was blocking your kicks, and I
might have grabbed your pants leg, or ankle, you kicked
me about 20 or 30 times."
Ms. Baker: (laughs) Hah, naw "I only kicked you about 4 or
5 times".
Petitioner: Yaah but I didn't beat your ass or physically
assault you.
Ms. Bakef’i, Yeah BUT you cut my finger.
Petitioner: You cut your own finger, the keys were in my
hands, and you snatched the keys out "my” hand, if you
wouldn't have snatched the keys out my hands out my
hands you wouldn't have cut your finger, you snatched
the keys out my hands, thats how your finger got cut."
Ms. Baker: YEAH but I still had to get stitches.
Petitioner: Yeah.

0.K whatever.

(This excerpted portion begins at appx. minute 6:14 on 3uly 19, 2013 made from
the Q.C.3. to 517-862-6174).
The exchanges in the G.C.3. recordings between petitioner and Ms. Baker was

27

exculpatory avidence that NO COMMISSION of another felony - "domestic violence"
took place.

Or in other words there can be NO crime of Unlawful Imprisonment

without the crime of domestic violence.
Because trial counsel failed investigate the O.C.3. recording’s that would
have discredited the case of domestic violence* the prosecutor was allowed to
proceed with the charge of Unlawful Imprisonment.
The above facts show and, prove that petitioners trial counsels FAILURE TO
INVESTIGATE (obtain) the O.C.3. recordings prejudiced the defense and deprived
petitioner of a fair trial, a trial in which petltimers conviction resulted
from the breakdown in the adversary process that renders the result-unreliable.
To further show and prove that trial counsels performance prejudiced the
defense, "the [petitioner] must show that there is a reasonable probability
that, but for counsels unprofessional errors, the result- of the proceeding
would have been different.

A reasonable probability is a probability

sufficient to undermine confidence in the outcome.’5 - Strickland at 694.
In a trial that hinged on.Me, Bakers credibility, her own words in the
O.C.3. records were exculpatory were she admitted that petitioner did NOT hit
her, etc * * contrary-to the assaultive allegations she testified to at both
trials.
Bad those recordings been INVESTIGATED: obtained, listened to, redacted
(the unnecessary facts), entered into evidence, and played for the jury to
haar, the outcome of petitioners 1st trial (most certainly) would have been
different.
Because petitioners first trial ended in a deadlocked jury - with 9 not
guilty end 3 guilty verdicts (due to Ms. Bakers constant recanting and
wavering testimony) without the O.G.3. recordings there is a reasonable
probability that additionally, the O.C.3. recordings would have tipped the

20

tha scales in petitioners favor by convincing the jury as a whole that
petitioner was-NOT guilty and led to s complete acquittal.
Therefore, the decision for trial counsel not to investigate (obtain) the
0.C.3. recordings cannot be deemed ’'reasonable or anything close to trial
strategy.
In like manner counsel should ever be allowed to shield themselves behind
the trial strategy umbrella or the magic words of trial strategy only to
deprive a parson who could possibly be innocent, of their life and/or liberty.
The Sixth Amendment not only guarantees the effective ssaistance of
counsel, but also under the confrontation clausa, petitioner had every right
to confront his accuser with any end all exculpatory evidence available.
Trial counsels failure to INVESTIGATE (obtain) the Q.C.3. recordings
"resulted in actual and substantial disadvantage to the course of [petitioners]
defense - Sea Strickland, 466 U.S. 682,
However, petition? has met oil requirements by this court in Strickland,
whowlng and proving that he'was deprived.of his constitutional right to have
the effective assistance of counsel, end the right to s fair trial.
Therefore petitioner asks and prays for this roost Honorable Court to grant'
him a writ of certiorari, and to reverse his convictions and sentences, and
remand his cane back to the trial court for a new trial.

on

CONCLUSION
I.

Petitioner was erroneously deprived of his constitutional right to
reprsasnt himself and the Sixth Circuit Court of Appeals has decided an
important Federal question pertaining to this issue in petitioners case in
a way that conflicts with this Courts decision in Faretta v. California,
422 U.5. 806 and therefore petitioner respectfully asks end prays for this
most Honorable Court to grant him a writ of certiorari.

(a)

yhsn a self-representation request is considered timely - is certainly
an important question of Federal law that has not, taut should be settled by
this Court.

kihich is likewise, a compelling enough reason for this most

Honorable Court to grant petitioner a writ of certiorari,

As petitioner

asserts that his unequivocal request wa3 timely.
II.

Petitioner was deprived of his constitutional right to the effective
assistance of counsel and a fair trial and the Sixth Circuit Court of
Appeals has decided an important Federal question pertaining to this issue
in petitioners case in a way that conflicts with this Courts decision in
Strickland v. bjashinqton, 4S6 U.S. 668 and therefore petitioner respectfully
asks and prays for this moat Honorable Court to grant him a writ of
certiorari.
Respectfully submitted

22, t-ozo/
A \A^^~ ^ t-O 20
Leon Venegas-3r
Prison # 262267
Carson City Correctional Facility
10274 Coyer Raad
Carson City, MI. 48811-9746

30

